END

APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI

ORDER Denying Appeal, United States Court of
Appeals for the Fourth Circuit (March 18, 2019)
............................ {fflda. App. 1} 303a to 309a

ORDER Denying Rehearing, United States Court of
Appeals for the Fourth Circuit (June 4,2019)...
............ (f/k/a App. 2}
310a to 337a
{fTk/aApp. 3.1}

WRIT @pg22 .... 338a to 340a

{f/k/a App. 3.2} WRIT@pg23.... 341a to 343a {
tfk/a App. 3.3 }

WRIT @pg 23

344a

303a
2;i5-cv-03199"DCN Date Filed 03/18/19 Entry
Number 234 Page 1 of 3
USCA4 Appeal: 18-1820 Doc: 27 Filed: 03/18/2019
Pg: 1 of 3
UNPUBLISHED
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
No. 18-1820
BOBBY KNIGHT, a/k/a Bobby Knight, III,
Plaintiff - Appellant,
v.
CHENEGA SECURITY, INC.; JOHN THORPE,
Chenega Security,
Defendants ■ Appellees,
and

„

ROBERT J. PAPP, JR., United States Coast Guard
Admiral; ATLANTIC ELECTRIC, LLC; LEGRANDE
RICHARDSON; MICHAEL RICHARDSON,
individually; LEGRANDE RICHARDSON, JR, South
Carolina State Department of Labor Licensing &
Regulation, as Contractor’s Licensing Board; LEWIS
M. CASWELL, South Carolina State Department of
Labor Licensing & Regulation, as Contractors
Licensing Board; Contractor’s Licensing Board,
JAMES EDWARD LADY, South Carolina State
Department of Labor Licensing & Regulation, as

304a
Contractor’s Licensing Board.; DANIEL B.
LEHMAN, South Carolina State Department of
Labor Licensing & Regulation, as Contractor’s
Licensing Board; KIMBERLY L. LINEBERGER,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor’s Licensing Board; BILL
NEELY, South Carolina State Department of Labor
Licensing & Regulation, as Contractor’s Licensing
Board; JAMIE C. PATTERSON, South Carolina
State Department of Labor Licensing & Regulation,
as Contractor’s Licensing Board; W. FRANKLIN
WALKER, South Carolina State Department of
Labor Licensing & Regulation, as Contractor’s
Licensing Board;
NIKKI R. HALEY, Governor; GEORGE SKIP
ALDRICH, Individual, DHSUSCG CHAS; JOHN
THORPE, Chenega Security; MICHAEL GLAZIER,
Individual, DHS-FLETC CHAS,
Defendants.
2:i5-cv-03199-DCN Date Filed 03/18/19 Entry
Number 234 Page 3 of 3
USCA4 Appeal: 18-1820 Doc: 27 Filed: 03/18/2019
Pg: 3 of 3
PER CURIAM:
Bobby Knight appeals from the district court’s
amended judgment dismissing Knight’s civil claims
against several Defendants.
We have reviewed the record and find no reversible
error. Accordingly, we affirm the district court’s
amended judgment. See Knight v. Chenega Sec., Inc.,

305a
No. 2:i5-cv-03199-DCN (D.S.C. July 27, 2018). We
grant Knight’s motion to supplement the record. We
dispense with oral argument because the facts and
legal contentions are adequately presented in the
materials before this court and argument would not
aid the decisional process.
AFFIRMED
2:i5-c-v-03199-DCN Date Filed 03/18/19 Entry
Number 234 Page 2 of 3
USCA4 Appeal: 18-1820 Doc: 27 Filed: 03/18/2019
Pg: 2 of 3
Appeal from the United States District Court for the
District of South Carolina, at Charleston. David C.
Norton, District Judge. (2-15-cv-03199-DCN)
Submitted’- March 14, 2019
Decided- March 18, 2019
Before WYNN and RICHARDSON, Circuit Judges,
and TRAXLER, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion,
Bobby Knight, III, Appellant Pro Se. John Keith
Blincow, Jr., BLINCOW GRIFFIN, Charleston,
South Carolina, for Appellees.

306a
2:i5-cv-03199-DCN Date Filed
Entry Number 235-1 Page 1 of 5

04-/09/19

USCA4 Appeal: 18-1820 Doc: 28-1 Filed: 03/18/2019
Pg: 1 of 2 Total Pages-(1 of 5)
FILED: March 18, 2019
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
No. 18-1820
(2:i5-cv-03199-DCN)
BOBBY KNIGHT, a/k/a Bobby Knight, III
Plaintiff - Appellant
v.
CHENEGA SECURITY, INC.; JOHN THORPE
Chenga Security
Defendants - Appellees
and
ROBERT J. PAPP, JR., United States Coast Guard
Admiral; ATLANTIC ELECTRIC, LLC; LEGRANDE
RICHARDSON; MICHAEL RICHARDSON,
individually; LEGRANDE RICHARDSON, JR.,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's Licensing Board;
LEWIS M. CASWELL, South Carolina State
Department of Labor Licensing & Regulation,

307a
as Contractor's Licensing Board; JAMES EDWARD
LADY, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board;
DANIEL B. LEHMAN, South Carolina State
Department of Labor Licensing &
Regulation, as Contractor's Licensing Board;
KIMBERLY L. LINEBERGER,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's
Licensing Board; BILL NEELY, South Carolina
State Department of Labor
Licensing & Regulation, as Contractor's Licensing
Board; JAMIE C.
PATTERSON, South Carolina State Department of
Labor Licensing & Regulation,
as Contractor's Licensing Board; W. FRANKLIN
WALKER, South Carolina State
Department of Labor Licensing & Regulation , as
Contractor's Licensing Board;
1

308a
2:i5-cv-03199-DCN Date Filed 04/09/19 Entry
Number 235-1 Page 2 of 5
USCA4 Appeal: 18-1820 Doc: 28-1 Filed: 03/18/2019
Pg: 2 of 2 Total Pages:(2 of 5)
NIKKI R. HALEY, Governor; GEORGE SKIP
ALDRICH, Individual, DHSUSCG CHAS; JOHN
THORPE, Chenega Security; MICHAEL GLAZIER,
Individual, DHS-FLETC CHAS
Defendants

JUDGMENT
In accordance with the decision of this court,
the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance
of this court's mandate in
accordance with Fed. R. App. P. 41.

/s/PATRICIA S. CONNOR. CLERK
2

309a
2-15‘cv03199"DCN Date Filed 04/09/19 Entry
Number 235'1 Page 3 of 5
USCA4 Appeal: 18-1820 Doc: 28-2 Filed: 03/18/2019
Pg: 1 of 3 Total Pages:(3 of 5
FILED: March 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820, Bobby Knight, HI v. Chenega Security
Inc.
215-CV-03199-DCN
NOTICE OF JUDGMENT
Judgment was entered on this date in accordance
with Fed. R. App. P. 36. Please be advised of the
■following time periods:
PETITION FOR WRIT OF CERTIORARI: To be
timely, a petition for certiorari must be filed in the
United States Supreme Court within 90 days of this
court's entry of judgment. The time does not run from
issuance of the mandate. If a petition for panel or en
banc rehearing is timely filed, the time runs from
denial of that petition. Review on writ of certiorari is
not a matter of right, but of judicial discretion, and
will be granted only for compelling reasons.
(www.supremecourt.gov)
VOUCHERS FOR PAYMENT OF APPOINTED OR
ASSIGNE COUNSELVouchers must be submitted
within 60 days of entry of judgment or denial of
rehearing, whichever is later. If counsel files a

310a
petition for certiorari, the 60-day period runs from
filing the certiorari petition. (Loc. R. 46(d)). If
payment is being made from CJA funds, counsel
should submit the CJA 20 or CJA 30 Voucher through
the CJA eVoucher system. In cases not covered by the
Criminal Justice Act, counsel should submit the
Assigned Counsel Voucher to the clerk's office for
payment from theAttorney Admission Fund. An
Assigned Counsel Voucher will be sent to counsel
shortly after entry of judgment. Forms and
instructions are also available on the court's web site,
www.ca4.uscourts.gov, or from the clerk's office.
BILL OF COSTS: A party to whom costs are
allowable, who desires taxation of costs, shall file a
Bill of Costs within 14 calendar days of entry of
judgment. (FRAP
39, Loc. R. 39(b)).
3

2:i5-cv-03199-DCN Date Filed 04/09/19 Entry
Number 235-1 Page 4 of 5
USCA4 Appeal: 18-1820 Doc: 28-2 Filed: 03/18/2019
Pg: 2 of 3 Total Pages:(4 of 5)
PETITION FOR REHEARING AND PETITION FOR
REHEARING EN BANC: A petition for rehearing
must be filed within 14 calendar days after entry of
judgment, except that in civil cases in which the
United States or its officer or agency is a party, the
petition must be filed within 45 days after entry of
judgment. A petition for rehearing en banc must be
filed within the same time limits and in the same
document as the petition for rehearing and must be

311a
clearly identified in the title. The only grounds for an
extension of time to file a petition for rehearing are
the death or serious illness of counsel or a family
member (or of a party or family member in pro se
cases) or an extraordinary circumstance wholly
beyond the control of counsel or a party proceeding
without counsel.
Each case number to which the petition applies must
be listed on the petition aiid included in the docket
entry to identify the cases to which the petition
applies. A timely filed petition for rehearing or
petition for rehearing en banc stays the mandate and
tolls the running of time for filing a petition for writ of
certiorari. In consolidated criminal appeals, the filing
of a petition for rehearing does not stay the mandate
as to co-defendants not joining in the petition for
rehearing. In consolidated civil appeals arising from
the same civil action, the court's mandate will issue at
the same time in all appeals.
A petition for rehearing must contain an introduction
stating that, in counsel's judgment, one or more of the
following situations exist: (l) a material factual or
legal matter was overlooked; (2) a change in the law
occurred after submission of the case and was
overlooked; (3) the opinion conflicts with a decision of
the U.S. Supreme Court, this court, or another court
of appeals, and the conflict was not addressed; or (4)
the case involves one or more questions of exceptional
importance. A petition for rehearing, with or without
a petition for rehearing en banc, may not exceed 3900
words if prepared by computer and may not exceed 15
pages if handwritten or prepared on a typewriter.

312a
Copies are not required unless requested by the court.
(FRAP 35 & 40, Loc. R. 40(c)).
MANDATE- In original proceedings before this court,
there is no mandate. Unless the court shortens or
extends. the time, in all other cases, the mandate
issues 7 days after the expiration of the time for filing
a petition for rehearing. A timely petition for
rehearing, petition for rehearing en banc, or motion to
stay the mandate will stay issuance of the mandate. If
the petition or motion is denied, the mandate will
issue 7 days later. A motion to stay the mandate will
ordinarily be denied, unless the motion presents a
substantial question or otherwise sets forth good or
probable cause for a stay. (FRAP 41, Loc. R. 41).
4
2'-15-cv-03199-DCN Date Filed 04/09/19 Entry
Number 235-1 Page 5 of 5
USCA4 Appeal: 18-1820 Doc: 28-2 Filed'- 03/18/2019
Pg'- 3 of 3 Total Pages:(5 of 5)
U.S. COURT OF APPEAL FOR THE FOURTH
CIRCUIT BILL OF COSTS FORM
(Civil Cases)
Directions: Under FRAP 39(a), the costs of appeal in
a civil action are generally taxed against appellant if
a judgment is affirmed or the appeal is dismissed.
Costs are generally taxed against appellee if a
judgment is reversed. If a judgment is affirmed in
part, reversed in part, modified, or vacated, costs are

k

313a
taxed as the court orders. A party who wants costs
taxed must, within 14 days after entry of judgment,
file an itemized and verified bill of costs, as follows:
• Itemize any fee paid for docketing the appeal. The
fee for docketing a case in the court of appeals is $500
(effective 12/1/2013). The $5 fee for filing a notice of
appeal is recoverable as a cost in the district court.
• Itemize the costs (not to exceed $.15 per page) for
copying the necessary number of formal briefs and
appendices. (Effective 10/1/2015, the court requires 1
copy when filed; 3 more copies when tentatively
calendared; 0 copies for service unless brief/appendix
is sealed.). The court bases the cost award on the page
count of the electronic brief/appendix. Costs for briefs
filed under an informal briefing order are not
recoverable.
• Cite the statutory authority for an award of costs if
costs are sought for or against the United States. See
28 U.S.C. § 2412 (limiting costs to civil actions); 28
U.S.C. § 1915(f)(1) (prohibiting award of costs against
the United States in cases proceeding without
prepayment of fees). Any objections to the bill of costs
must be filed within 14 days of service of the bill of
costs. Costs are paid directly to the prevailing party or
counsel, not to the clerk's office.
Case Number & Caption:

■____________ _____

Prevailing
Party
Requesting
costs:____________
Appellate Docketing Fee (prevailing

Taxation

of

314a
appellants)- Amount Requested- _
Allowed'-____

Amount

Document No. of Pages No. of Copies
Page

Cost
(<$.15)
Total Cost
Requested Allowed
(court use only) Requested Allowed
(court use only) Requested Allowed
(court use only)
TOTAL BILL OF COSTS: $0.00 $0.00
1. If copying was done commercially, I have attached
itemized bills. If copying was done in-house, I certify
that my standard billing amount is not less than $.15
per copy or, if less, I have reduced the amount charged
to the lesser rate.
2. If costs are sought for or against the United States,
I further certify that 28 U.S.C. § 2412 permits an
award of costs.
3. I declare under penalty of perjury that these costs
are true and correct and were necessarily incurred in
this action.
Signature'-

______________________ —.

Date:_______________________________

315a
Certificate of Service
I certify that on this date I served this document as
follows:
Signature:
Date:____
5

316a
2'-15-cv-03199-DCN Date Filed 04/09/19 Entry
Number 235-1 Page 1 of 5
USCA4 Appeal: 18-1820 Doc: 28-1 Filed: 03/18/2019
Pg: 1 of 2 Total PagesTl of 5)
FILED: March 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820
(2:i5-cv-03199-DCN)
BOBBY KNIGHT, a/k/a Bobby Knight, III
Plaintiff - Appellant
v.
CHENEGA SECURITY, INC.; JOHN THORPE,
Chenga Security
Defendants - Appellees
and
ROBERT J. PAPP, JR., United States Coast Guard
Admiral; ATLANTIC ELECTRIC, LLC; LEGRANDE
RICHARDSON; MICHAEL RICHARDSON,
individually; LEGRANDE RICHARDSON, JR.,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's Licensing Board;
LEWIS M. CASWELL, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; JAMES EDWARD

k

317a

LADY, South Carolina State Department of Labor
Licensing & Regulation, as Contractor's Licensing
Board; DANIEL B. LEHMAN, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; KIMBERLY L.
LINEBERGER, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; BILL NEELY, South Carolina
State Department of Labor Licensing & Regulation,
as Contractor's Licensing Board; JAMIE C.
PATTERSON, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; W. FRANKLIN WALKER, South
Carolina State Department of Labor Licensing &
Regulation, as Contractor's Licensing Board;
1
2:i5-cv03199-DCN Date Filed 04/09/19 Entry
Number 235-1 Page 2 of 5
USCA4 Appeals 18-1820 Doc: 28-1 Filed: 03/18/2019
Pg: 2 of 2 Total Pages:(2 of 5)
NIKKI R. HALEY, Governor; GEORGE SKIP
ALDRICH, Individual, DHSUSCG CHAS; JOHN
THORPE, Chenega Security; MICHAEL GLAZIER,
Individual, DHS-FLETC CHAS
Defendants

318a
JUDGMENT
In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court's mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK
2

2:15-cv-03i99-DCN Date Filed 04/09/19 EntryNumber 235-1 Page 3 of 5
USCA4 Appeal- 18-1820 Doc: 28-2 Filed: 03/18/2019
Pg: 1 of 3 Total Pages-'(3 of 5)
FILED: March 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820, Bobby Knight, III v. Chenega Security
Inc.
2'-15-cv-03199-DCN
NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with
Fed. R. App. P. 36. Please be advised of the following
time periods:
PETITION FOR WRIT OF CERTIORARI: To be
timely, a petition for certiorari must be filed in the

k.

319a
United States Supreme Court within 90 days of this
court's entry of judgment. The time does not run from
issuance of the mandate. If a petition for panel or en
banc rehearing is timely filed, the time runs from
denial of that petition. Review on writ of certiorari is
not a matter of right, but of judicial discretion, and
will be granted only for compelling reasons.
(www.supremecourt.gov)
VOUCHERS FOR PAYMENT OF APPOINTED OR
ASSIGNED COUNSEL: Vouchers must be submitted
within 60 days of entry of judgment or denial of
rehearing, whichever is later. If counsel files a
petition for certiorari, the 60-day period runs from
filing the certiorari petition. (Loc. R. 46(d)). If
payment is being made from CJA funds, counsel
should submit the CJA 20 or CJA 30 Voucher through
the CJA eVoUcher system. In cases not covered by the
Criminal Justice Act, counsel should submit the
Assigned Counsel Voucher to the clerk's office for
payment from the Attorney Admission Fund. An
Assigned Counsel Voucher will be sent to counsel
shortly after entry of judgment. Forms and
instructions are also available on the court's web site,
www.ca4.uscourts.gov, or from the clerk's office.
BILL OF COSTS: A party to whom costs are
allowable, who desires taxation of costs, shall file a
Bill of Costs within 14 calendar days of entry of
judgment. (FRAP
39, Loc. R. 39(b))
3

320a
2:i5-cv-03199-DCN Date Filed 05/03/19 Entry
Number 236 Page 1 of 2
USCA4 Appeal'- 18-1820 Doc: 31 Filed: 05/03/2019
Pg: 1 of 2
FILED: May 3, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820
(2:i5-cv-03199-DCN)
BOBBY KNIGHT, a/k/a Bobby Knight, III
Plaintiff - Appellant
v.

CHENEGA SECURITY, INC.; JOHN THORPE,
Chenga Security
Defendants - Appellees
and
ROBERT J. PAPP, JR., United States Coast Guard
Admiral; ATLANTIC ELECTRIC, LLC; LEGRANDE
RICHARDSON; MICHAEL RICHARDSON,
individually; LEGRANDE RICHARDSON, JR.,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's Licensing Board;
LEWIS M. CASWELL, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; JAMES EDWARD
LADY, South Carolina State Department of Labor

Ik

321a
Licensing & Regulation, as Contractor's Licensing
Board; DANIEL B. LEHMAN, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; KIMBERLY L.
LINEBERGER, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; BILL NEELY, South Carolina
State Department of Labor Licensing & Regulation,
as Contractor's Licensing Board; JAMIE C.
PATTERSON, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; W. FRANKLIN WALKER, South
Carolina State Department of Labor Licensing &
Regulation, as Contractor's Licensing Board;
1
2-.15-cv-03199-DCN Date Filed 05/03/19 Entry
Number 236 Page 2 of 2
USCA4 Appeal: 18-1820 Doc: 31 Filed'- 05/03/2019
Pg; 2 of 2
NIKKI R. HALEY, Governor; GEORGE SKIP
ALDRICH, Individual, DHSUSCG CHAS; JOHN
THORPE, Chenega Security; MICHAEL GLAZIER,
Individual, DHS-FLETC CHAS
Defendants
ORDER
The court strictly enforces the time limits for
filing petitions for rehearing and petitions for

322a
rehearing en banc in accordance with Local Rule
40(c). The petition in this case is denied as untimely.
For the Court-By Direction
Is/ Patricia S. Connor. Clerk

323a
2:i5-cv-03199-DCN Date Filed 05/17/19 Entry
Number 237 Page 1 of 2
USCA4 Appeal: 18-1820 Doc- 33 Filed: 05/17/2019
Pg: 1 of 2
FILED: May 17, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820
(2:i5-cv-03199-DCN)
BOBBY KNIGHT, a/k/a Bobby Knight, III
Plaintiff - Appellant
v.
CHENEGA SECURITY, INC.; JOHN THORPE,
Chenga Security
Defendants - Appellees
and
ROBERT J. PAPP, JR., United States Coast Guard
Admiral; ATLANTICELECTRIC, LLC; LEGRANDE
RICHARDSON; MICHAEL RICHARDSON,
individually; LEGRANDE RICHARDSON, JR.,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's Licensing Board;
LEWIS M. CASWELL, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; JAMES EDWARD

324a
LADY, South Carolina State Department of Labor
Licensing & Regulation, as Contractor's Licensing
Board; DANIEL B. LEHMAN, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board! KIMBERLY L.
LINEBERGER, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; BILL NEELY, South Carolina
State Department of Labor Licensing & Regulation,
as Contractor's Licensing Board! JAMIE C.
PATTERSON, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; W. FRANKLIN WALKER, South
Carolina State Department of Labor Licensing &
Regulation, as Contractor's Licensing Board; NIKKI
R. HALEY, Governor; GEORGE SKIP ALDRICH,
Individual, DHSUSCG CHAS; JOHN THORPE,
Chenega Security; MICHAEL GLAZIER, Individual,
DHS-FLETC CHAS
Defendants.
1

2:i5-cv-03199-DCN Date Filed 05/17/19 Entry
Number 237 Page 2 of 2
USCA4 Appeal'- 18-1820 Doc: 33 Filed: 05/17/2019
Pg: 2 of 2
ORDER
The court grants the motion to reconsider its
order denying a petition as untimely under Local

325a
Rule 40(g). The petition is deemed timely filed and
will be considered on its merits.
For the Court--By Direction
/s/Patricia S. Connor, Clerk

2

326a
2;I5-cv-03199-DCN Date Filed 06/04/19 Entry
Number 238 Page 1 of 2
USCA4 Appeal'- 18-1820 Doc: 35 Filed: 06/04/2019
Pg: 1 of 2
FILED: June 4, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820
(2:i5-cv-03199-DCN)
BOBBY KNIGHT, a/k/a Bobby Knight, III
Plaintiff - Appellant
v.
CHENEGA SECURITY, INC.; JOHN THORPE,
Chenga Security
Defendants - Appellees
and
ROBERT J. PAPP, JR., United States Coast Guard
Admiral; ATLANTIC ELECTRIC, LLC; LEGRANDE
RICHARDSON; MICHAEL RICHARDSON,
individually; LEGRANDE RICHARDSON, JR.,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's Licensing Board;
LEWIS M. CASWELL, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; JAMES EDWARD

327a
LADY, South Carolina State Department of Labor
Licensing & Regulation, as Contractor's Licensing
Board! DANIEL B. LEHMAN, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; KIMBERLY L.
LINEBERGER, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; BILL NEELY, South Carolina
State Department of Labor Licensing & Regulation,
as Contractor's Licensing Board; JAMIE C.
PATTERSON, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; W. FRANKLIN WALKER, South
Carolina State Department of Labor Licensing &
Regulation, as Contractor's Licensing Board; NIKKI
R. HALEY, Governor; GEORGE SKIP ALDRICH,
Individual, DHSU
1
■2:i5-cv-03199-DCN Date Filed 06/04/19 Entry
Number 238 Page 2 of 2
USCA4 Appeab 18-1820 Doc: 35 Filed: 06/04/2019
Pg: 2 of 2
USCG CHAS; JOHN THORPE, Chenega Security!
MICHAEL GLAZIER, Individual, DHS-FLETC
CHAS
Defendants
ORDER
The court denies the petition for rehearing.

328a
Entered at the direction of the panel: Judge Wynn,
Judge Richardson, and Senior Judge Traxler.
For the Court
Is/ Patricia S. Connor. Clerk

329a
2:i5-cv-03199-DCN Date Filed 06/12/19 Entry '
Number 239-1 Page 1 of 5
USCA4 Appeal' 18-1820 Doc: 28-1 piled: 03/18/2019
Pg: 1 of 2 Total Pages:(l of 5)
FILED: March 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820
(2:i5-cv-03199-DCN)
BOBBY KNIGHT, a/k/a Bobby Knight, HI
Plaintiff - Appellant
v.
CHENEGA SECURITY, INC.; JOHN THORPE,
Chenga Security
Defendants - Appellees
and
ROBERT J. PAPP, JR., United States Coast Guard
Admiral; ATLANTIC ELECTRIC, LLC; LEGRANDE
RICHARDSON; MICHAEL RICHARDSON,
individually; LEGRANDE RICHARDSON, JR.,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's Licensing Board;
LEWIS M. CASWELL, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; JAMES EDWARD

330a
LADY, South Carolina State Department of Labor
Licensing & Regulation, as Contractor's Licensing
Board; DANIEL B. LEHMAN, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor's Licensing Board; KIMBERLY L.
LINEBERGER, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board! BILL NEELY, South Carolina
State Department of Labor Licensing & Regulation,
as Contractor's Licensing Board; JAMIE C.
PATTERSON, South Carolina State Department of
Labor Licensing & Regulation, as Contractor's
Licensing Board; W. FRANKLIN WALKER, South
Carolina State Department of Labor Licensing &
Regulation, as Contractor's Licensing Board;
1

2:l5-cv-03199-DCN Date Filed 06/12/19 Entry
Number 239-1 Page 2 of 5
USCA4 Appeal: 18-1820 Doc: 28-1 Filed: 03/18/2019
Pg: 2 of 2 Total Pages: (2 of 5)
NIKKI R. HALEY, Governor; GEORGE SKIP
ALDRICH, Individual, DHSUSCG CHAS; JOHN
THORPE, Chenega Security; MICHAEL GLAZIER,
Individual, DHS-FLETC CHAS
Defendants
JUDGMENT
In accordance with the decision of this court,
the judgment of the district

331a
court is affirmed.
This judgment shall take effect upon issuance
of this court's mandate in
accordance with Fed. R. App. P. 41.
IsI PATRICIA S. CONNOR. CLERK
2
2:i5-cv-03199-DCN Date Filed 06/12/19 Entry
Number 239-1 Page 3 of 5
USCA4 Appeal: 18-1820 Doc: 28-2 Filed: 03/18/2019
Pg: 1 of 3 Total Pages;(3 of 5)
FILED: March 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1820, Bobby Knight, HI v. Chenega Security
Inc.
2:l5-cv-03199-DCN
NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with
Fed. R. App. P. 36. Please be advised of the following
time periods:
PETITION FOR WRIT OF CERTIORARI: To be
timely, a petition for certiorari must be filed in the
United States Supreme Court within 90 days of this
court's entry of judgment. The time does not run from

332a
issuance of the mandate. If a petition for panel or en
banc rehearing is timely filed, the time runs from
denial of that petition. Review on writ of certiorari is
not a matter of right, but of judicial discretion, and
will be granted only for compelling reasons.
(www.supremecourt.gov)
VOUCHERS FOR PAYMENT OF APPOINTED OR
ASSIGNED COUNSEL:
Vouchers must be submitted within 60 days of entry
of judgment or denial of rehearing, whichever is later.
If counsel files a petition for certiorari, the 60-day
period runs from filing the certiorari petition. (Loc. R.
46(d)). If payment is being made from CJA funds,
counsel should submit the CJA 20 or CJA 30 Voucher
through the CJA eVoucher system. In cases not
covered by the Criminal Justice Act, counsel should
submit the Assigned Counsel Voucher to the clerk's
office for payment from the Attorney Admission Fund.
An Assigned Counsel Voucher will be sent to counsel
shortly after entry of judgment. Forms and
instructions are also available on the court's web site,
www.ea4.uscourts.gov, or from the clerk's office.
BILL OF COSTS: A party to whom costs are
allowable, who desires taxation of costs, shall file a
Bill of Costs within 14 calendar days of entry of
judgment. (FRAP
39, Loc. R. 39(b)).,
3

333a
2*15‘cv*03199*DCN Date Filed 06/12/19 Entry '
Number 239-1 Page 4 of 5
USCA4 Appeal: 18-1820 Doc: 28-2 Filed: 03/18/2019 ,
Pg: 2 of 3 Total Pages:(4 of 5)
PETITION FOR REHEARING AND PETITION FOR
REHEARING EN BANC; A petition for rehearing
must be filed within 14 calendar days after entry of
judgment, except that in civil cases in which,the
United States or its officer or agency is a party, the
petition must be filed within 45 days after entry of
judgment. A petition for rehearing en banc must be
filed within the same time limits and in the same
document as the petition for rehearing and must be
clearly identified in the title. The only grounds for an
extension of time to file a petition for rehearing are
the death or serious illness of counsel or a family
member (or of a party or family member in pro se
cases) or an extraordinary circumstance wholly
beyond the control of counsel or a party proceeding
without counsel.
Each case number to which the petition applies must
be listed on the petition and included in the docket
entry to identify the cases to which the petition
applies. A timely filed petition for rehearing or
petition for rehearing en banc stays the mandate arid
tolls the running of time for filing a petition for writ of
certiorari. In consolidated criminal appeals, the filing
of a petition for rehearing does not stay the mandate
as to co-defendants not joining in the petition for
rehearing. In consolidated civil appeals arising from
the same civil action, the court's mandate will issue at
the same time in all appeals.

334a
A petition for rehearing must contain an introduction
stating that, in counsel's judgment, one or more of the
following situations exist: (l) a material factual or

legal matter was overlooked; (2) a change in the law
occurred after submission of the case and was
overlooked; (3) the opinion conflicts with a decision of
the U.S. Supreme Court, this court, or another court
of appeals, and the conflict was not addressed; or (4)
the case involves one or more questions of exceptional
importance. A petition for rehearing, with or without
a petition for rehearing en banc, may not exceed 3900
words if prepared by computer and may not exceed 15
pages if handwritten or prepared on a typewriter.
Copies are not required unless requested by the court.
(FRAP 35 & 40, Loc. R. 40(c)).
MANDATE: In original proceedings before this court,
there is no mandate. Unless the court shortens or
extends the time, in all other cases, the mandate
issues 7 days after the expiration of the time for filing
a petition for rehearing. A timely petition for
. rehearing, petition for rehearing en banc, or motion to
stay the mandate will stay issuance of the mandate. If
the petition or motion is denied, the mandate will
issue . 7 days later. A motion to stay the mandate will
ordinarily be denied, unless the motion presents a
substantial question or otherwise sets forth good or
probable cause for a stay. (FRAP 41, Loc. R. 41).
4

335a
2’15‘Cv03199-DClSf Date Filed 06/12/19 Entry
Number 239-1 Page 5 of 5 - '
US CA4 Appeal.: 18-1820 Doc: 28-2 Filed: 03/18/2019 ,
Pg: 3 of 3 .Total Pages:(5 of 5)
U.S. COURT OF APPEAL FOR THE FOURTH
CIRCUIT BILL OF COSTS FORM
(Civil Cases)
Directions: Under FRAP 39(a), the costs of appear in
a civil action are generally taxed against appellant if
a judgment is affirmed or the appeal is dismissed.
Costs are generally taxed against appellee if a
judgment is eversed. If a judgment is affirmed in part,
reversed in part, modified, or vacated, costs are taxed
as.the court orders. A party who wants costs taxed
must, within 14 days after entry of judgment, file an
itemized and verified bill of costs, as follows:
• Itemize any fee paid for docketing the appeal. The
fee for docketing a case in the court of appeals is $500
(effective 12/1/2013). The $5 fee for filing a notice of
appeal is recoverable as a cost in the district court.
• Itemize the costs (not to exceed $.15 per page) for
copying the necessary number of formal briefs and
appendices. (Effective 10/1/2015, the court requires 1
copy when filed; 3 more copies when tentatively
calendared; 0 copies for service unless brief/appendix
is sealed.). The court bases the cost award on the page
count of the electronic brief/appendix. Costs for briefs
filed under an informal briefing order are not
recoverable.

336a
• Cite the statutory authority for an award of costs if
costs are sought for or against the United States. See
28 U.S.C. § 2412 (limiting costs to civil actions); 28
U.S.C. § 1915(f)(1) (prohibiting award of costs against
the United States in cases proceeding without
prepayment of fees). Any objections to the bill of costs
must be filed within 14 days of service of the bill of
costs. Costs are paid directly to the prevailing party or
counsel, not to the clerk's office.
Case Number & Caption:________ __________ Prevailing Party Requesting Taxation of Costs:
Appellate Docketing Fee (prevailing
appellants): Amount Requested: _
Allowed:____
Document No. of Pages No. of Copies
Page
Cost
(<$.15>
Total Cost
Requested Allowed
(court use only) Requested Allowed
(court use only) Requested Allowed
(court use only)
TOTAL BILL OF COSTS: $0.00 $0.00

Amount

337a
1. If copying was done commercially, I have attached
itemized bills. If copying was done in-house, I certify
that my standard billing amount is not less than $.15
per copy or, if less, I have reduced the amount charged
to the lesser rate.
2. If costs are sought for or against the United States,
I further certify that 28 U.S.C. § 2412 permits an
award of costs.
3. I declare under penalty of perjury that these costs
are true and correct and were necessarily incurred in
this action.
Signature:__________________ ____________

Date:
Certificate of Service
I certify that on this date I served this document as
follows:
Signature:___________
Date:_____ _________________

5

338a
See WKIT @pg 22
APPENDIX 3.1.supporting cite
For example, in Louzon v. Ford Motor Co., the
district court granted a motion in limine in which a
party argued that its opponent could not make out a
prima facie case where the evidence was “irrelevant
and in- admissible.” 718 F.3d 556, 562-63 (6th Cir.
2013). In- stead of analyzing the district court’s
decision as a simple evidentiary ruling, the Sixth
Circuit explained that because the motion “rest[ed]
entirely on the presumption that Louzon would not be
able to make out a prima facie case” — i.e., a legal
conclusion - the evidentiary ruling that followed would
itself be “null.” Id. at 563.
See, e.g., Louzon v. Ford Motor Co., 718 F.3d
556, 563 (6th Cir. 2013) (“Where, as here, the motion in
limine is no more than a rephrased summaryjudgment motion, the motion should not be
considered.”); Mid-Am. Tablewares, Inc. v. Mogi
Trading Co., Ltd., 100 F.3d 1353 (7th Cir. 1996)
(upholding district court’s refusal to look at the merits
of an “argument that goes to the sufficiency” of
evidence through a motion in limine when such an
argument is proper for summary judgment or
judgment as a matter of law); Meyer Intellectual
Properties Ltd. v. Bodum, Inc., 690 F.3d 1354 (Fed. Cir.
2012) (finding it improper that the “district court
essentially converted Meyer’s motion in limine into a
motion for summary judgment” and refusing to review
the decision despite both parties having fully briefed
the merits of the argument on appeal).
The court clarified the importance of rejecting
the “harmless error” standard of review, warning that
“if these tactics were sufficient, a litigant could raise

339a
any matter in limine, as long as he included the
duplicative argument that the evidence relating to the
matter at issue was irrelevant.” Id. The Sixth Circuit
concluded that “[w]here, as here, the motion in limine
is no more than a rephrased summary-judgment
motion, the motion should not be considered.” Id.
Litigants often attempt to use motions in limine
{and to Dismiss} to circumvent procedural rules
concerning dismissal of claims. See, e.g., Williams v.
LLC,
No.
Rushmore
Loan
Mgmt.
Servs.
3-15CV673(RNC), 2017 WL 822793 (D. Conn. Mar. 2,
2017) (collecting cases and denying a “procedurally
improper” motion in limine {emphasis'
motions to dismiss} that sought “dispositive rulings on
the merits of [plaintiff’s] claims”).
Other circuits have likewise strictly enforced
the prohibition against using a motion in limine {and
to Dismiss} to achieve the equivalent of a summary
judgment. In Meyer Intellectual Properties Ltd. v.
Bodum, Inc., the district court granted a motion in
limine that prevented the defendant from “presenting
evidence in support of its inequitable conduct defense.”
690 F.3d 1354, 1378 (Fed. Cir. 2012). On appeal, the
defendant argued that the district court had erred as
it had essentially converted the plaintiff’s motion into
one of summary judgment. Id. The plaintiff argued
that this error was harmless. Id.
Rejecting the plaintiff’s contention, the Federal
Circuit held that “the district court erred in addressing
the sufficiency of [the defendant’s] inequitable conduct
defense on an evidentiary motion,” observing that in
doing so the court had transformed the motion into a
motion for summary judgment. Id. Because the
Federal Circuit found “that it was procedurally
improper for the [district] court to dispose of [the
defendant’s] inequitable conduct defense on a motion

340a
,

i;r: V'/'

In Limine,” it reversed and remanded, declining to
review APPENDIX 3.1.2 continued the decision
despite both parties having fully briefed the merits of
the argument on appeal. Id.
,
Significantly, these courts dp not review district
court decisions under the “substantial prejudice”
harmless error standard employed by the Ninth
Circuit in the instant case. The significantoprocedural
defect of granting summary judgment on an
evidentiary motion is on its own enough to warrant
reversal.

341a
See WRIT @pg 23
APPENDIX 3.2. supporting cite
See, e.g., Berkovitz v. Home Box Office, Inc., 89
F.3d 24, 30 (1st Cir. 1996) (“As with any other grant of
summary judgment, the court of appeals affords
plenary review to a decision granting sua sponte
summary judgment, and reads the record in the light
most hospitable to the targeted party.”); Stella v. Town
of Tewksbury, Mass., 4 F.3d 53, 56 (1st Cir. 1993)
(finding that the “notice requirement for sua sponte
summary judgment demands at the very least that the
parties (l) be made aware of the court’s intention to
mull such an approach, and (2) be afforded the benefit
of the minimum 10-day period mandated by Rule 56”);
Bradley v. Pittsburgh Bd. of Educ., 913 F.2d 1064 (3d
Cir. 1990) (using a “no set of facts on which plaintiff
could possibly recover” standard of review for
dismissal of claims); Brobst v. Columbus Servs. Int’l,
761 F.2d 148, 154 (3d Cir. 1985), cert, denied, 484 U.S.
1043 (1988) (revers- ing where “the district court’s
procedure converted the in limine motion into one for
summary judgment,” and “effectively precluded
plaintiffs- from marshalling the record evidence that it
had already accumulated”); Givaudan Fragrances
Corp. v. Krivda, 639 F. App’x 840, 843 n.6 (3d Cir.
2016) (applying a de novo stand- ard on motion in
limine decision that had a “dispositive effect”); Zokari
v. Gates, 561 F.3d 1076, 1082 (10th Cir. 2009)
(providing analysis of motion in limine “to exclude from
trial any evidence ‘regarding the failure to pay [the
plaintiff ] for his last day of employment’ ” where it
found grant of that motion “was not an evidentiary
ruling but was a substantive ruling that he could not

%

342a

.V ......

..i •

.*

.

pursue a ... wage-law claim”); Massey v. Congress Life
Ins. Co., 116 F.3d 1414, 1417-18 (llth Cir. 1997)
(reversing and remanding grant of sua. sponte
summary judgment where the nonmoving party was
not given “an opportunity to marshal their strongest
evidence and legal arguments in opposition” in
contravention of “both Rule 56 and Eleventh Circuit
precedent”).
Considering a grant of summary judgment
“following a hearing on motions in limine,” the Third
Circuit used a “no set of facts on which plaintiff could
possibly recover” standard of review. Bradley v. Pitts­
burgh Bd. of Educ., 913 F.2d 1064,1069 (3d Cir. 1990).
Defendants in this case argued “that because the
motions in limine essentially asked the district court
to preclude all evidence that would support [the plain­
tiff ’s] claims, [the plaintiff ] must have known that if
the motions were granted all his claims would be
effectively barred.” Id.
The appeals court disagreed, noting that
“neither the parties nor the judge suggested that the
trial, for which the jury had already been picked, would
not go forward.” Id. Further, “in the absence of a formal
motion for summary judgment,” the court found that
“the plaintiff was under no formal compulsion to
marshall, [sic] all of the evidence in support of his
claims.” Id. The court therefore held that, because “the
district court’s procedure converted the in limine
motion into one for summary judgment... without the
procedural protections . . . require[d],” it would review
the claims dismissed by the sua sponte summary
judgment order “looking to . . . the allegations of the
complaint and the state proceedings of which [the
court] ctould] take judicial notice.” Id.
Likewise, here, Stroh informed the trial judge
that if Saturna’s motion in limine were granted, his

343a
SOX claim “would be effectively barred.” Nevertheless,

the court failed to afford Stroh the procedural
protections required under the Federal Rules of Civil
Procedure, such as allowing an opportunity to submit
evidentiary materials in opposition to Saturna’s
motion.

344a
See WRIT @pg 23
APPENDIX 3.3. supporting cite
In Berkovitz v. Home Box Office, Inc., the First
Circuit reviewed de novo a sua sponte grant of
summary judgment where the district court “did not
reduce [its] orders to writing, but delivered them ora
sponte at the pretrial conferences” and did not “invite [
] [the plain- tiff ] to marshal and present” evidence. 89
F.3d 24, 30- 31 (1st Cir. 1996). On appeal, the court
noted that it was not “comfortable shifting the blame
for the apparent miscommunication to the plaintiff.”
Id. at 31. The appeals court found that where “review
[was] . . . unaffected by the spontaneous nature of the
trial court’s action,” it would “afford [ ] plenary review
to a decision granting sua sponte summary judgment,
and read[ ] the record in the light most hospitable to
the targeted party.” Id. at 30. Because the district court
did not give “the plaintiff a meaningful opportunity *n
cull the best evidence supporting his position, and to
present that evidence.” the First Circuit held that it
“need go no further” in its review, vacating and
remanding the case for further proceedings Id. at 3031.

No.

In The
Supreme Court of the United States

BOBBY KNIGHT, a/k/a Bobby Knight, III,
Petitioner,
v.
JEH CHARLES JOHNSON, DHS SEC. et al„
Respondents.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fourth Circuit
SUPPLEMENTAL APPENDIX ( s.a.)
TO PETITION FOR WRIT OF CERTIORARI

Bobby Knight, pro se
3940 Hottinger Ave., North Charleston, S.C.
29405
(843) 735-0814

RECEIVED
mar

2 4 2020

mrdtsyfi*

INDEX
SUPPLEMENTAL APPENDIX ( s.a.)

2:i5-cv-03199-DCN ORDER
£

Date Filed 05/22/18
Entry Number 213

001s.a. to 012s.a.

001 s.a.
2U5-cv-03199-DCN Date Filed 05/22/18 Entry
Number 213 Page 1 of 7
IN THE DISTRICT COURT OF THE UNITED
STATES
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Bobby Knight,
Plaintiff, No. 2U5-cv-03199-DCN
v.
Jeh Charles Johnson, Department of
Homeland Security Secretary, et al,
Defendants.
2:i5-cv-03199-DCN
ORDER
This matter is before the Court upon
Bobby Knight’s (“Knight”) motion entitled
“Plaintiffs FRCP 60 & FLC/Brief Motion &
Notice of.” ECF. No. 203. For the reasons set
forth herein, the court denies Knight’s motion.
This case has a long history, beginning
back in 2015, that need not be repeated here in
totality. Knight initially filed this action solely as
a am tarn action. ECF No. 1. Subsequent to a
hearing held on October 9, 2015, Magistrate
Judge Mary Gordon Baker recommended-on
January 5, 2016-that Knight’s case be dismissed

002 s.a.
without prejudice, because Knight cannot
proceed pro se on a qui tam claim. ECF. No. 27.
On January 4, 2016, the day before this Report
and Recommendation (“R&R”) was issued,
Knight filed an Amended Complaint. ECF. No.
26.

In addition to his aui tam claim, Knight’s
Amended Complaint appears to contain claims
pursuant to 42 U.S.C. § 1983, 42 U.S.C. § 1985(3),
and 31 U.S.C. § 3730(h). ECF. No. 26. These
additional claims arose out of a “Disciplinary
Action” by the “South Carolina Contractor’s
Board” against Knight. ECF. No. 26 at 3. Knight
alleges this “Disciplinary Action” against him
was in retaliation for his <jui tam action. Id- at 34. Knight was given an extension of time to file
objections to the R&R dated January 5, 2016,
such that his objections were due by April 1,
2016. ECF. Nos. 31, 35. Instead of
1
2T5-cv-03199-DCN Date Filed 05/22/18 Entry
Number 213 Page 2 of 7
filing objections,{FNl} on March 22, 2016,
Knight filed a Motion to Stay and Motion to
Amend. ECF. No. 38.
In an Order
Magistrate Judge
Motion to Amend!
Amended Complaint

dated October 27, 2016,
Baker granted Knight’s
ordered that his Second
be docketed by the Clerk;

003 s.a.
and unsealed the case. ECF. Nos. 92, 94. In that
same filing, Judge Baker recommended granting
the United States’ Motion to Dismiss “Count VI”
of the Second Amended Complaint and sua
snonte dismissing Knight’s qui tarn claim. ECF.
No. 92.{FN2} The clerk docketed Plaintiffs
Second Amended Complaint in accordance with
Judge Baker’s instructions. ECF. No. 94. On
November 21, 2016, the court adopted Judge
Baker’s R&R dated October 27, 2016;
accordingly, Knight’s qui tam claim was
dismissed as of November 21, 2016. ECF. No.
107.
On December 21, 2016, Defendants
Chenega Security, Inc. and John Thorpe filed an
Answer. ECF. No. 110. Between January 11,
2017 and January 19, 2017, Defendants Atlantic
Electric LLC, Michael Richardson, George Skip
Aldrich, Michael Glazier, Jeh Charles Johnson,
Robert J. Papp, Jr., South Carolina State
Department of Labor Licensing and Regulation,
Lewis M. Caswell, James E. Lady, Daniel B.
Lehman, Kimberly L. Lineberger, Bill Neely,
Jamie C. Patterson, Legrande Richardson, Jr.,
W. Franklin Walker, and Nikki R. Haley filed
dispositive motions. ECF. Nos. 125, 129, 134,
135, 136. On or about February 14, 2017,
Plaintiff filed a Motion for Summary Judgment.
ECF. No. 149.
On July 7, 2017, Magistrate Judge Baker
issued an R&R recommending granting the
dispositive motions filed by Defendants Atlantic

004 s.a.
Electric LLC, Michael Richardson, George Skip
Aldrich, Michael Glazier, Jeh Charles Johnson,
Robert J. Papp, Jr., South

1

The R&R of January 5, 2016, was vacated
on October 27, 2016. ECF. Nos. 27, 91.
2
The R&R contained a typographical error;
it referred to “Count yi” of the Second
Amended Complaint, when the United States
sought to dismiss—and the Magistrate Judge
analyzed—“CountTV” of the Second Amended
Complaint. ECF. Nos. 71, 92.) Because the
Report and Recommendation erroneously
referred to “Count VI,” the Order on the Report
and Recommendation did the same. See ECF.
No. 107; see also ECF; No. 92. The portion of
Plaintiffs Second Amended Complaint that was
dismissed was Plaintiffs.request for a special
prosecutor. See ECF. No. 92 at 11T2, ECF. No.
107.
2

2T5-cv-Q3199-DCN Date Filed 05/22/18 Entry
Number 213 Page 3 of 7
Carolina State Department of Labor Licensing
and Regulation, Lewis M. Caswell, James E.
Lady, Daniel B. Lehman, Kimberly L.
Lineberger, Bill Neely, Jamie C. Patterson,
Legrande Richardson, Jr., W. Franklin Walker,
and Nikki R. Haley. ECF. No. 179. She also
recommended denying Knight’s Motion for
Summary Judgment. ECF. No. 179. On August

C"

005 s.a.
10,
2017,
the
court
adopted
that
recommendation, {FN3} denying the Knight’s
Motion for Summary Judgment and granting the
dispositive motions filed by Defendants Atlantic
Electric LLC, Michael Richardson, George Skip
Aldrich, Michael Glazier, Jeh Charles Johnson,
Robert J. Papp, Jr., South Carolina State
Department of Labor Licensing and Regulation,
Lewis M. Caswell, James E. Lady, Daniel B.
Lehman, Kimberly L. Lineberger, Bill Neely,
Jamie C. Patterson, Legrande Richardson, Jr.,
W. Franklin Walker, and Nikki R. Haley. ECF.
No. 186.
On August 15, 2017, Knight filed a Motion
to Reconsider the court’s Order of August 10,
2017; that motion was denied on September 13,
2017. ECF. Nos. 189,194. On October 2,2017, he
filed another Motion for Reconsideration, which
was denied on October 6, 2017. ECF. Nos. 199,
201. On or about October 10, 2017, Knight filed
the instant motion entitled “Plaintiffs FRCP 60
& FLC/Brief Motion & Notice of.” ECF. No. 203.
Knight’s motion is, like many of his filings,
difficult to understand. He statesThe District Court CAN use the Federal
Law Center (FLC) Nonprisoner Case
Management to perform the following
tasks in the best interest of justice and to
GRANT Plaintiff Knight his Right as a
Citizen to Redress his Grievances to the
federal government by NOT DENYING
Access to the Courts.

006 s.a.
a. TO: REDACT all previous Court’s
Orders and to re-litigate the Plaintiffs
pleadings as filed as there was more
options than those previously Ordered to
obtain an attorney; and
b. TO; Appoint Plaintiff Knight a
volunteer pro bono attorney as there are
material facts and evidence provided the
Court as required of a Qui Tam
Whistleblower case; and
3
Although not in accordance with the
Magistrate Judge’s recommendation, the
undersigned also dismissed Legrande
Richardson as a defendant. (ECF. No. 186.)
3

2:i5-cv-Q3199-DCN Date Filed 05/22/18 Entry
Number 213 Page 4 of 7
c. TO: Grant Plaintiff Knight a Court
Order directed to and instructing the
appointed volunteer pro bono attorney to
perform in an unbound
representation capacity.. . to include,
his/her being able to be awarded all
costs and attorney fees! and
d. TO: Clarify that the term “pro se” in
Black’s dictionary is a Latin term
meaning “on one’s own behalf’... a
Court Administration hired Pro Se
Lawyer acting like a Ghostwriter who
anonymously and even unknown to
EACH INDIVIDUAL OF the Court’s pro
se filers, this Lawyer acts and

j.

£

007 s.a.
bundles ALL pro se litigants into one
Class--and by doing so in secret
without an appearances crosses the
ethical and procedural boundaries, set by
Congress and the Courts by presidents
have limited on true pro se’s.
See U.S. § 1927. '
ECF. No. 203 at 2-5 of 6 (footnote omitted).
To the extent Knight is requesting that
counsel be appointed for him, that request is
denied. The court has discretion to appoint
counsel for an indigent in a civil action. 28 U.S.C.
§ 1915(e); Smith v. Blackledge. 451 F.2d 1201,
1203 (4th Cir. 1971). Here, there is nothing
indicating that Plaintiff is indigent, as he is not
proceeding in forma pauperis. See Receipt No.
SCX200012658 (DSC); ECF. No. 1. Additionally,
“[t]here is not a constitutional right to appointed
counsel in a civil case.” Lyles v. Signal. 122 F.3d
1061 (4th Cir. 1997) (unpublished table decision);
see also Underwood v. Beavers. 711 F. App’x 122,
123 (4th Cir. 2017) (unpublished table decision)
(“[Cjivil litigants have no constitutional right to
counsel. . . .”), Lavado v. Keohane. 992 F.2d 601,
605—06 (6th Cir. 1993) (“Appointment of counsel
in a civil case is not a constitutional right.”).
Specifically, “[tlhere is no statutory or case law
authority for the appointment of counsel at
public expense in a qui tarn action.” U.S. ex rel.
Schwartz v. TRW Inc.. 118 F. Supp. 2d 991, 996
(C.D. Cal. 2000). However, the court may appoint
counsel when exceptional circumstances exist.

008 s.a.
Cook v. Bounds. 518 F.2d 779, 780 (4th Cir.
1975). The Fourth Circuit has stated that the
existence of exceptional circumstances “will turn
on the quality of two basic factors—the type and
complexity of the case, and the abilities of the
individuals bringing it.” Brock v. City of
Richmond. 983 F.2d 1055 (4th Cir. 1993)
(unpublished table decision). “To find exceptional
circumstances, the court must evaluate the
likelihood of success on the merits and the ability
of the petitioner to
4

2-15-CV-03199-DCN Date Filed 05/22/18 Entry
Number 213 Page 5 of 7
articulate the claims pro se in light of the
complexity of the legal issues involved.”
Williams v. Dep’t of Corr.. 2013 WL 3305485, at
*2 (W.D. Wash., 2013).
Here, the appointment of counsel is not
warranted. Knight is fully able to litigate—and
in fact has litigated—his own claims, but he
seeks the appointment of counsel because he is
unable to proceed pro se on his qui tarn claim.
Knight, however, lacks a personal interest in a
qui tarn claim. As there are no exceptional
circumstances in the case here, the court denies
Knight’s request for the appointment of counsel.
To the extent Knight seeks relief pursuant
to Rule 60 of the Federal Rules of Civil

f
i

009 s.a.
Procedure, the undersigned discerns no basis for
such relief. Rule 60 provides, in relevant part(a) Corrections Based on Clerical
Mistakes; Oversights and Omissions. The
court may correct a clerical mistake or a
mistake arising from oversight or omission
whenever one is found in a judgment,
order , or other part of the record. The court
may do so on motion or oh its own, with or
without notice. But after an appeal has
been docketed in the appellate court and
while it is pending, such a mistake may be
corrected only with the appellate court’s
leave.
(b) Grounds for Relief from a Final
Judgment, Order, or Proceeding. On
motion and just terms, the court may
relieve a party or its legal representative
from a final judgment, order, Or proceeding
for the following reasons^
(1) mistake, inadvertence, surprise,
or excusable neglect;
(2) newly discovered evidence that,
with reasonable diligence, could
not have been discovered in time to
move for a new trial under Rule
59(b);
(3) fraud (whether previously
called intrinsic or extrinsic),
misrepresentation, or misconduct
by an opposing party;

010 s.a.
(4) the judgment is void;
(5) the judgment has been
satisfied, released or discharged; it
is based on an earlier judgment
that has been reversed or vacated;
or applying it prospectively is no
longer equitable; or
(6) any other reason that justifies
relief.
Fed. R. Civ. P. 60.
5

2:l5-cv-03199-DCN Date Filed 05/22/18 Entry
Number 213 Page 6 of 7
Although Knight cites to Rule 60 of the
Federal Rules of Civil Procedure, it is not clear
whether he seeks relief pursuant to Rule 60(a) or
Rule 60(b). Rule 60(a) applies when “the court
intended one thing but by merely clerical mistake
or oversight did another.” Dura-Wood Treating
Co. v. Century Forest Indus., Inc.. 694 F.2d 112,
114 (5th Cir. 1982). The key difference between
Rule 60(a) clerical mistakes and others is that
the former consist of blunders in execution
whereas the latter consists of instances
where the court changes its mind, either
because it made a legal or factual mistake
in making its original determination, or

£
t

Oil s.a.
because on second thought it has decided
to exercise its discretion in a manner
different from the way it was exercised in
the original determination.
Rhodes v. Hartford Fire Ins. Co.. 548 F. App’x
857, 859-60 (4th. Cir., 2013). To the extent
Knight seeks relief pursuant to Rule 60(a), he has
not identified a clerical mistake or mistake
arising from oversight or omission and is
therefore not entitled to relief pursuant to Rule
60(a).
To the extent Knight seeks relief pursuant
to Rule 60(b), the court likewise concludes he is
entitled to no relief. Knight has not set forth any
facts or argument to bring his motion within the
purview of Rule 60(b)(1), Rule 60(b)(2), Rule
60(b)(3), Rule 60(b)(4), or Rule 60(b)(5). He may
be seeking relief pursuant to Rule 60(b)(6), but
“to be entitled to Rule 60(b)(6) relief, the movant
‘extraordinary
demonstrate
must
circumstances.”’ Aikens v. Ingram. 652 F.3d 496
510 (4th Cir. 2011) (quoting Valero Terrestrial
Corn, v. Paige, 211 F.3d 112, 118 n.2 (4th Cir.
2000)). Knight has not set forth any exceptional
circumstances; instead, it appears he simply
wishes to “reditigate” matters already decided.
ECF. No. 203 at 4. Plaintiff is therefore not
entitled to relief pursuant to Rule 60(b). See
United States v. Williams. 674 F.2d 310, 313 (4th
Cir. 1982) (“Where the motion is nothing more
than a request that the district court change its
9

012 s.a.
mind,... it is not authorized by Rule 60(b)”).
6

2-15-CV-03199-DCN Date Filed 05/22/18 Entry
Number 213 Page 7 of 7
CONCLUSION
For the foregoing reasons, the court
DENIES Knight’s motion.
AND IT IS SO ORDERED.
S/
DAVID C. NORTON
UNITED STATES DISTRICT JUDGE
May 22, 2018
Charleston, South Carolina

